IN THE
SUPREME COURT OF THE UNITED STATES
KEVIN C. SUTHERBY ** Petitioner
-vsSHERMAN CAMPBELL - Respondent

'n'.R'if^APr.r

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT.

FILED
DEC 3 0 MO

PETITION FOR WRIT OF CERTIORARI

#738047
ly Submitted
Pro Se.
Gus Harrison Corr. Facility
2727 E. Beecher St.
Adrian. MI, 49221
/
I
NOTARY PUBLiaSTATi OF Ml

WjgJMMSlSHfn 25,2023
ACTING IN COUNTY OF
/

J

J

’

Questions Presented
1.

Whether, Mr. Sutherby is entitled to a new trial, based on Newly

Discovered Evidence, Ineffective Assistance of Counsel at trial, and
appeals, and the admission and use of Illegal Evidence.
2.

Whether, Mr. Sutherby is entitled to a reversal of conviction,

based on the prosecution at district court, and circuit court never
"proving”, the petitioner to be the perpetrator, by the voice on the
illegal

recording,

and

also

never proving

the

3rd

element

of

penetration, by "disallowing the Medical Exam".
(Brady Violation)
3.

Whether, Mr. Sutherby is entitled to a reversal, based upon the

Constitutional Rights Violation at Preliminary Examination, and at
Trial: 4th Amendment, and bth Amendment violations.

Also violations

of MCL 750.539 sec. c.f • » MRE 901 sec. 51b, Contrary to Michigan
Statutes.
4.

Whether, Mr. Sutherby is entitled to proceed with the Habeas

Corpus Appeal, due to his ineffective retained, appellate counsel who
failed to file an application for leave to appeal in the Michigan
Supreme Court, and retained Habeas Corpus attorney, who failed to
respond to stipulated orders of District Court Judge:

Honorable

Stephen J. Murphy.
5.

Whether, Mr. Sutherby is entitled to a reversal of conviction

based on "Warrantless Arrest" by Southgate Michigan/Taylor Michigan
police department*

6.

Whether, Hr. Sutherby was deprived of a fair trial, and is

entitled

to

new

trial,

due

to

prosecutorlal

misconduct,

when

prosecutor bolstered testimony of witness, offered expert testimony,
without objection from trial counsel, or objection from trial court.

TABLE OF AUTHORITIES

CASES
PAGES
Carvy -v- Saffold, 536 U.S. 214*222,224, 122 S.Ct. 2134 (2002)
8
Artuz -v- Bennett, 531 U.S. 4, 121 S.Ct 361, 363-365 (2006) .
8
Pace -v- Diguglielmo, 544, U.S. 408, 418, 125 S.Ct 1807 (2005) « * * * • 8
Dretke -v- Haley, 541 U.S. 386, 124 S.Ct 1847, 1851-52 (2004) I • * • » 10
Coleman -v- Thompson, 511 U.S. 722, 111 S.Ct 254, 2557 & n.l (1999).10
U.S. -v- Boerckel, 526 U.S. at 853-54, 119 S.Ct at 1736 ....
10
Wainwright -v- Sykes, 433 U.S* 72 87-88, 97 S.Ct. 2497 (1977) ♦ • • ♦ * 10
Murray -v- Carrier, 477 U.S. 478, 495-96, 106 S.Ct. 2639 (1996)
10
U.S. -v- Frady, 456 U.S. 152, 170, 102 S.Ct 1584, 1586 (1982) • • * e * 11
Schlup -v- Delo, 513 U.S. 298, 327-329 115 S.Ct 851, 867-68 (1995).11
U.S. -v- White, 40 U.S. 745 (1971) .
12
People -v- Taylor, 93 Mich App. 292
12
People -v- Hall, 88 Mich App. 324 ..
13
People -v- Berkey, 437 Mich 40 (1990)
13
People -v- Taylor, 18 Mich App 381, 171 N.tf. 2d 249 (1969)
13
Katz -v- U.S •» 389 U.S. 347, 88 S.Ct 507} 19 LE2d 576 (1987)
15
People -v- Howe, 392 Mich 620 (1974) ..........................................
17
People -v- Smith, 396 Mich 109 (1976) ................................
17
People -v- Delessandro, 165 Mich App 569, 575 (1987)
21
People -v- Pickens, 446 Mich 298 (1984) ............
21
Sullivan -v- Gray, 117 Mich App 476 (1982) ..............
23
• t 9

CONSTITUTIONAL AND STATUTORY PROVISIONS
U.S. Const!! 2254 (d)(2)
U.S. Const 18 2244 ...
28 USC. 2254 (d)(2) ...
MCL 7801*564 .................
750.539 sec. c-e-f
MRE 901 sec. S&6 ...

.8
16
8
15
16
15

INDEX TO APPENDICES
APPENDIX A — Appeal Motions/Order/Opinions
APPENDIX B — Trial Transcripts
APPENDIX C -- Case Law/Affidavits/F.0.I,A« Papers/Police Reports

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the Judgment below*

OPINIONS BELOW

The orders and opinion of the United States Court of Appeals for the
Sixth Circuit appear at; 2020 US App Lexis 31374
The order and opinion of the United States District Court for the
Eastern District of Michigan Southern Division appear at; 2019 US
Dist. Lexis 181223
The orders of the highest state court to review appear at; Michigan
Supreme Court 501 Mich 878.
The orders and opinion of the Michigan Court of Appeals appear at;
2016 Mich App Lexis 2700 334983
The order and opinion of the trial court appear at;
Order regarding Motion No. 08-013482
also all of the trial transcripts proving wrongful conviction.
List of Parties

- ..i.

STATEMENT OF JURISDICTION

Petitioner) Kevin C. Sutherby, files for Writ of Certiorari
pursuant to 28 U.S.C.A. & 1254(1) and 28 U.S.C.A. & 1257(a), as a
State Prisoner convicted in the Wayne County Circuit Court, in the
State of Michigan on July

2009 where his convictions of CSC 1st

violate his Constitutional rights*

Mr. Sutherby was found guilty by a

jury*
On August 13th 2009, the trial court sentenced Mr. Sutherby to
25yrs to 50yrs.
detention.

Mr. Sutherby seeks relief from such unconstitutional

As such, this petition for Writ of Certiorari was filed

within the 90-day period of the final decision from the United States
Sixth Circuit Court of Appeals denying his petition for rehearing that
was entered on October 1st 2020.

STATEMENT OF THE CASE
A. FACTUAL BACKGROUND
Hr. Sutherby was arrested charged and convicted by the illegal
evidence of the recording, which was not proven to be Mr. Sutherbys
voice.

nor by phone records,

was

not his cellphone number

that

plaintiff called during illegal recordings.
Trial Prosecutor suppressed the Plaintiffs "Medical Exam" which caused
- misconduct, ineffective counsel and also a "Brady Violation"
The Medical Exam proved Mr. Sutherby's INNOCENCE!
B.

TRIALS
1st Trial -- Mistrial - No "Manifest Necessity"
2nd Trial - Guilty by Jury - Mislead/Perjured, impeachment

testimony, miscarriage of justice -- Jury Instructions, Constitutional
Right Violations, MCL 750.53S - MRE 901 Violations

C,

Direct Appeals

1st Appeal Attorney - Dec. 7th. 2009

- Court of Appeals - Affirmed.

2nd Defense Appellate Attorney - Failed to submit Leave to Appeal in
the Michigan Supreme Court.
3rd Defense Appellate Attorney -

Relief of Judgement 2016

2nd C.O.A. - (2nd decision) Court of Appeals - 2016 - Affirmed - 2016
(no establishment) Supreme Court 2016 - Denied - 2017
(Habeas Corpus)

United States District

2018

Denied

2019

(reconsidered)
(Motion for C.O.A.)

United States Court of Appeals - 2020 - Dismissed

Reconsidering pending as of 10/20/20
Trial transcripts have never

been

seen by

any Appeals

Court/Judges, defense counsel never submitted the transcripts with any
motions?

ineffective counsel

The transcripts ’’prove the innocence of Mr.

Sutherby,

they prove

miscarriage of justice/Prosecution Misconduct ineffective counsel, and
100% fact proves the corruption that caused the conviction of an
Innocent Man!
Please read the transcripts*

PROCEDURAL DEFAULT

The procedural default doctrine, like the exhaustion doctrine,
the

untimely

doctrine,

is

grounded

in

principles

of

comity,

federalism, and judicial efficiency Dretke -v- Haley, 541 US 386. 124
SCt 1847. 1851-52 (2004) normally will preclude a federal court from
reaching the merits of a habeas claim when either (1) that claim was
presented to the state courts and the state court ruling against the
petitioner, rests on adequate and independent state-law procedural
grounds, or (2) the claim was not presented to the state courts and it
is clear that those courts would now hold the claim procedurally
barred.

Coleman -v- Thompson. 511 U.S. 722. Ill SCt 254. 2557 & n. 1

(1999)
Thus, when the habeas petitioner has failed to fairly present to
the state courts the claim on which he seeks relief in federal court
and the opportunity to raise that claim in state court has passed, the
petitioner has procedurally defaulted that claim Boerckel. 526 U.S. at
853-54. 119 Set at 1736.
A procedural default will bar a federal court from granting
relief on a habeas claim unless the petitioner demonstrates "Cause"
for the default and prejudice resulting therefrom, Wainwright -v
-Sykes 433 U.S. 72. 87-88. 97 St.Ct 2497 (1977). or alternatively, he
convinces the court that a miscarriage of justice would result if his
claim were not entertained on the merits.
478. 495-96. 106 S.Ct 2639 (1996).

Murray v Carrier. 477 US

To establish prejudice, he "must

shoulder the burden of showing, not merely that the errors at his
trial created a possibility of prejudice, but that they worked to his

actual and substantial disadvantage, infecting this entire trial with
error of Constitutional Dimensions.

United States -v- Frady, 456 U.S

152. 170. 102 SCt 1584. 1586 (1982).
If the petitioner cannot show cause and prejudice but instead
seeks to overcome his procedural default by establishing the prospect
of Miscarriage of

Justice,

then he must demonstrate that he is

Actually Innocent of the crime for which he was convicted — that is,
he must convince the court that no reasonable juror would have found
him guilty but for the errors allegedly committed by the State.
Schlup *v~ Delo, 513 US 298. 327-329. 115 SCt. 851. 867-68 (1995).
If the jurors would of been told that the voice was never proven
to be the defendant,
defendant’s

number,

the number the plaintiff called was not the
and

the

results

of

the

Medical

exam

were

"negative” to an assault to victim, for a "fact any juror on this
planet, would of found defendant "not guilty"!
With the federal court not knowing these same issues, the errors are
keeping Mr. Sutherby from getting relief.
If Judge Steven Whalen, was notified about how the evidence was
obtained, and tampered with, over and over.

And most importantly,

withholding the results of "Medical Exam", that conclusively proved
that no penetration is detected.

This withholding of key exonerating

evidence deprived defendant of his substantial rights.
I believe that, had The Honorable Judge Whalen, been aware of
these

errors

committed by

trial court,

trial

counsel,

appellate

counsels, and prosecutor he would have overturned my conviction or in
the least ordered a "Evidentiary Hearing,"
Participant monitoring through the use of an electronic device by

a participant in a conversation which transmits the exchange to a
third-party, and the recording of a conversation by a participant in
the conversation on recording instead of transmitting it are both
"Searches

and

Seizures",

requirements".

which

comply

with

the

"search

warrant

"Participant monitoring", refers to the use of an

device by a participant of a conversation which transmits the exchange
to a third-party, which make it "illegal, and inadmissible."
In U.S. v White, 40 U.S, 745 (1971) Justice Harlan statedj "It is
one thing to subject the average citizen to the risk that participants
in a conversation with him will subsequently divulge its contents to
another, but quite a different matter to foist upon the risk that
"unknown third-parties may be simultaneously listening in."
Federal Constitutional law recognizes a distinction between thirdparty monitoring and participant monitoring.
involves
knowledge

police
of

monitoring

either

of

a

participant,

Third-party monitoring

conversation without consent or
whereas

participant

monitoring

involves monitoring with the consent of one of the parties to the
conversation between two people,

When police engage in third party

monitoring, a search occurs for 4th amendment purposes, and police
must procure a

search warrant prior to eavesdropping.

People v

Taylor, 93 Mich App. 292 Michigan Const. 1963 Art 1 sec. 11

The Michigan Court of Appeals ruled in People v Hall, that trial
court erred in admitting a tape recording obtained without a warrant
of his conversation with a police informant,
defendant’s conviction,

The court reversed

it held that the police had to obtain a

warrant before lawfully taping a conversation between a individual and

a police informant and that recording was therefore "inadmissible" as
the result of an illegal search and seizure.
conviction.

The court reversed the

People v Hall. 88 Mich App 324.
Petitioner

Sutherby,

asks

this

court

to

settle

this

Constitutional violation, surely the United States Supreme Court will
take a clear stance against: "Inconclusive parties, telephone recorded
conversation being
analysis
recording.

wasn't

allowed

conducted

as
to

admissible evidence,
determine

who

was

when

talking

a voice
on

the

This is of extreme importance since societal reliance on

technology is paramount for our success as a nation.

If this court

allows this miscarriage of justice to stand, then a landside effect
shall take course across our nation.

Any and every unidentified phone

recording can and will be used as instruments of injustice.
The Michigan Court of Appeals has a clear standard for admittance
of recording into evidence, yet this standard was not adhered to as
described in People v Berkley,437 Mich 40, 467 NW2.d 6 (1990) and
People v Taylor 18 Mich App 381, 171 N.W. 2d 249 (1969). which lists
the proper foundation, for admission of recordings, into evidence as:
1. Showing that the recording device was capable of taking testimony.
2. Showing that the operator of the device was competent.
3. Must show establishment of the authenticity and correctness of the
recording.
4.
Must show that "no changes," additions, or deletions have been
made to the recording.
5. Must shovf the manner of the preservation of the recording.
6. Must prove the identification of the speakers voices'.
7. Must show that the testimony elicited was voluntarily made without
any inducement.
Furthermore, Court of Appeals Judges stated, in People v Berkev :
"For the above reasons, we conclude that the prosecution failed to

establish a proper foundation for the admission of the recordings.
Accordingly, we conclude that the trial court erred in admitting the
recordings into evidence and, therefore, defendant is entitled to a
new trial.*1
Yet, this standard of admission of recordings of evidence, wasnft
abided by The Trial Court, The Court of Appeals, The Michigan Supreme
Court, thereby violating Petitioner*s Due process rights.
It is nationally accepted that: "The simultaneous disclosure of a
conversation to Third-Parties in participant monitoring and the
recording of a conversation by a participant are equally intrusive or
personal privacy} the fact that a recording of a conversation could be
stored permanently and then produced long after the participants or
their monitors forgot about the conversation, or re-recorded the
recording makes participant recording just as intrusive of privacy as
participant monitoring with its simultaneous transmission of a
conversation and subject to the same restrictions on it*s use.
(INADMISSIBLE).
Defendant contended that a warrant authorizing recording of his
telephone conversation with a Third-Party was defective under the
Federal Constitution because it did not describe with particularity,
the types of conversations to be monitored, did not state that there
was probable cause to believe that a particular offense had been or
was being committed by defendant, did not limit the number of
telephone conversation to be monitored, and did not contain a
termination date.

Tha court reversed defendant# conviction.

To pass muster under MCL

780.654. the search warrant was required to have sufficiently describe
tha conversation to be recorded*

The warrant was deficient in that

respect, the court had to reverse the judgement because the court was
unable to cay that admitsion of the evidence was harmless.
THIRD-PARTY INADMISSIBLE
To focus on the risk of accurate reproduction would validate even,
the warrantless monitoring condemned in, Kata *v~ United States. 3S9
U»S< 347s 8S Set 507i19 L£d2d 576 (1967). because the conversation
seised in that case was accurately "reproduced*" The search and
seizure clausa is not directly concerned with whether tha information
is accurately ‘‘Reproduced” at trial but rather it is concerned with
the procedures employed in acquiring the information.
ME §01 (5X6)
5,

VOICE . IDENTIFICATIONS Identification of a voice, whether heard

firsthand or through a “recording”* by opinion baaed upon hearing the
voice at any time under circumstances “must” connect the voices with
the alleged speaker.
6.

TELEPHONE, CONVERSATIONS: Telephone conversations, by evidence that

a call was made to the "numbar assigned” at the time by the "Telephone
Company1', to a particular parson”s In the case of a person Including
"Self^Identification, "must” show the person answering "to be the one
jcoLLec^,
In People v Suthcrby at the first trial, the prosecution witness Hick
Larson tells the Jury/Court, under oafche that "they did not know I was
recording them. I tricked them both"l He also states* "I only rer

recorded," what I thought we needed,"

He also states: "I took my

phone to Sherry Hall's house, and re-recorded the recording onto
Sherry's cell phone"!

Sherry took it to James Shears cellphone and

re-recorded the taping, onto James cellphone."

proper foundation

reasons: #3, #4, and #7 violated!

EVIDENCE TO SUPPORT CHARGE
The sole evidence used in People v Sutherby, was a "ThirdParty", warrantless secret non-consented phone taping of a private
conversation that also never proved the authenticity, nor proved the
identification of voices on the illegal recording!

A proper motion

for authentication of voices on recording was properly filed in trial
court, however trial judge denied the motion, however the prosecutor
didn't object to the motion.

So, what we have here in People v

Sutherby, was a "Due Process violation", 4th Amendment violation, a
MCL 750.539(c)(e)(f) violation, a MCL 780.654 violation, a MRE 901
(5)(6) violation, and a Michigan Court of Appeals defined violation of
"Proper Foundation Prong Violation of 7 Prong Test.

These violations

were not presented to the Michigan Court of Appeals nor The Michigan
Supreme Court, due to Ineffective Assistance of Appellate Counsel.
In People v Sutherby, at the second trial, double jeopardy took
place against Mr. Sutherby, when trial judge allowed a second trial to
take place without proving, "manifest necessity." a miscarriage of
justice also occured when trial judge refused to allow the re-reading
of witness testimony to jury, when it was requested to judge, by
letter on the record, that statement be re-read to jury, in compliance
w

//

People -v- Howe 392 Mich, 620 (1974) and People v Smith, 396 Mich
109 (1976).

Also, during second trial) "transcript of phone

recording” was used that never subjected to authentiflcation testing.
nor voice confirmation was attained by expert, therefore according to
Federal and State standards of admissible evidence, this admission was
a clear major error, by trial court.

This admittance of disputed

recording, violated Mr.Sutherbyfs constitutional rights.

While

transcripts of alleged recording was read at second trial, it would've
been only proper to compare the written transcripts with the
recordings that were in evidence to confirm a verbatim transcription,
along with a voice analysis to truly confirm, if the voice on the
recording was indeed Mr. Sutherby*

Yet, in the first trial, and in

the second trial the voice of the recording wasn't verified as
Mr.Sutherby, thus the transcript version of the recording is also
impermissibly allowed as evidence.
These accounts are verifiable by the record, thus the state did
not prove Mr. Sutherby guilty, "beyond a reasonable doubt!

ARGUMENT I
Whether Mr. Sutherby is entitled to a New Trial,
based on Newly Discovered Evidence o£ affidavits,
testifying to prove the plaintiff lied about washing
the sheets, and also ineffective counsel by not
calling these witnesses to support the proof.
In Jury Volume II Page #16 the question is asked to the socalled plaintiff on line #8: Q. What did you do about the bloody
sheets?
A;

I threw them in the washer.

Q. Wheres the washer?
A* In the basement.
Q.

And what did you do in the basement?

A.

I put the sheets in the washer.

Q.

And did you start the washer?

A.

Yes.

Q.

Okay, what did you do after you did that?

A*

I think I went on the couch and fell back asleep.

In the same Jury Volume II page #91 Jon Sutherby is being
examined under-oath, when the following questions were asked.
Q. Do you recall straightening that room up after this
Line #7
particular morning?

A.

As a matter of fact after Kevin's reception and the party
afterwards, everybody came back to my house. As a matter of fact, I
did make that bed for somebody else to sleep in that night.
Line #13 Same page #91 Jon Sutherby on the stand under oath.
Q. Okay, When you made that bed or began to make It how did you find
the mattress and the mattress pad, the sheets, if it was there, the
pillow?
A.

It looked like everything was there as I made it the day before.

Q.

Was the sheets still there?

A.

Yes

Q.

Was the mattress pad still there?

/

A* Yes
Q.

Was the blanket still there?

A.

Yea

Q.

And was the pillow still there?

A.

Yes

Q.

Did you see any, did you see any blood on the sheets?

A.

No, not at all.

Cross Examination by Prosecutor:
Sir, the only men who spent the night in your home were
Q.
yourself, Kevin, Brian, who was on the love seat and Dean, your out of
town brother, is that fair to say?
A.

Joe Kirby was there also, but not in the morning.

Q.

So you don’t know whether or not he spent the night?

A. I said he was there when I went to sleep, He wasn't there when I
woke up in the morning.
Q. Alright, now you don't know if someone washed the bed sheet in
Janels room and replaced them that morning, do you?
A*

That couldn't have happened.

Q.

Well why not?

A.

Cause I got up at 7:30 in the morning.

Q.

Now your brother is the person who's on trial today, right?

A.

Yes

Q. And you're here today in part to protect him from anything that
could happen to him is that fair to say?
A.

I'm here to tell the truth of any questions you ask me.
The real sad part is, that Jon Sutherby was called as the States

Witness.

The other sad thin was, that the defense counsel didn't go

back one witness to Janel's statements, and tell the jury that she
stated she washed the sheets,

and never asked the question if the

washar was broken, which everyone knew at the party that it was, Then
also later during appeal, the defendant’s attorneys did not submit the
signed and solemnly sworn affidavits about the broken washer, the
trial and appellant attorneys all together denied Mr, Sutherby a fair
trial, and a perfect leave of appeal, for these reasons alone, among
allot of other reason, Mr. Sutherbys conviction shall be reversed and
he shall be released from said confinement.

The Court also noted that defendant’s own statements or actions
may determine or influence the reasonableness of counsel’s actions:
’’Counsel’s actions are usually based, quite properly, on informed
strategic choices made by the defendant and on information supplied by
the defendant.” Id. 466 US 691. The court continued:
For example, when the facts that support a certain potential
line of defense are generally known to counsel because of what
the defendant has said, the need for further investigation may be
considerably diminished or eliminated altogether.
And when a
defendant has given counsel reason to believe that pursuing
certain' investigations would be fruitless or even harmful,
counsel s failure to pursue those investigations may not later be
challenged as unreasonable,
In short, inquiry into counsel s
conversations with the defendant may be critical to a proper
assessment of counsel's other litigation decisions.” Id.
A defendant must establish that counsel provided
representation that was constitutionally deficient * and must also
"affirmatively prove prejudice."
Id. 466 US at 693.
It is
insufficient to show that "the errors had some conceivable effect on
the outcome of the proceeding."
there

is

a

reasonable

id,

probability

The standard, then is "whether
that,

absent

the

errors

the

factfinder would have had a reasonable doubt respecting guilt," Id.
466 US at 695.
In making this determination, the trial court must
consider all evidence presented. Id.

The Strickland standard was adopted in Michigan in People v
Dalessandro, 165 Mich App 569, 575 (1987).

The Michigan Supreme

Court, in People v Pickens, 446 Mich 298 (1994), formally adopted the
Strickland standard for Michigan.

Under Michigan law, "counsel’s

ineffective assistance must be found to have been prejudicial in order
to reverse an otherwise valid conviction.” Pickens, 446 Mich at 314*
First, the defendant must show that counsel’s performance
was deficient. This requires showing that counsel made errors so
serious that counsel was not functioning as 'counsel' guaranteed
the defendant by the Sixth Amendment. Second, the defendant must
show that the deficient must show that the deficient performance
prejudiced the defense.
This requires showing that counsel's
errors were so serious as to deprive the defendant of a fair
trial, a trial whose result is reliable.
Unless a defendant
makes both showings, it cannot be said that the conviction or
death sentence resulted from a breakdown in the adversary process
that renders the result unreliable.
The Court noted that there is a strong presumption that counsel
was effective, and defendant must overcome that presumption:

"Because

of the difficulties inherent in making the evaluation, a court must
indulge a strong presumption that counsel's conduct falls within the
wide range of reasonable professionals assistance
689.

*

■*

*

Id., 466 US at

The Court noted that effective representation can be provided in

"countless ways," and further noted that judicial scrutiny must be
"highly deferential" and held that "[a] fair assessment of attorney
performance requires

that

every effort be made to eliminate

the

distorting effects of hindsight, to reconstruct the circumstances of
counsel's

challenged

conduct,

and

counsel's performance at the time."

to

evaluate

the

conduct

from

Strickland, 455 US at 689.

In making the determination, trial courts wee also instructed to
determined whether
* • • in

light of all the circumstances, the identified acts or
etent
keep

in mind that counsel's function, as elaborated in prevailing
professional norma, is to make the adversarial testing process
work in the particular case. At the same time, the court should
recognise that counsel is strongly presumed to have rendered
adequate assistance and made all significant decisions In the
exercise of reasonable professional norms.

Outside the law-enforcement context) the key provision regarding
tape recordings of communication is 16 USC 2511 (d)f which permits a
person who is not acting under color of law to intercept wire or oral
communication where such person is a party to the communication or
where one of the parties to the communication or where one of the
parties

to

the

communication

has

given

prior

consent

to

such

interception unless such communications is intercepted for the purpose
of committing and criminal or tortuous act under state or federal law*
Thus, any party to a conversation may record it or lawfully authorize
someone else to record it so long as his purpose is not criminal or
tortuous*
The Hichigan statute thus seemingly bars both consensual and
participant monitoring,

as

it

twice expressly

without the permission of all parties.

forbids

recording

However, in Sullivan v. Gray.

117 Mich App 476 (1982), the Michigan Court of Appeals interpreted the
statue as permitting participant monitoring.
statedi

The Sullivan court

''The statute contemplates that a potential eavesdropper must

be a third party not otherwise involved in the conversation being
eavesdropped on.

Had the legislature desired to include participants

within the definition, the phrase 'of others' might have been excluded
or changed to 'of others or with others'.
The anomaly is that the Michigan statute permits participant
monitoring, but prohibits consensual monitoring!
While a participant may record a conversation with apparent
impunity, His sole consent is insufficient to make permissible the
eavesdropping of a third party. Thus, while a participant may record
a conversation, he or (she) may not employ parties to do so for him or
(her)•
As long as Sullivan, supra, remains valid, participant recordings

ace lawful and thus necessarily admissible.
authorizes

a

However, if a participant

third party to record the conversations,

violated the Michigan Statute, but not Title III.

both have

The Michigan

statue, unlike Title III, contains no statutory exclusionary rule.
As such, the recording of a telephone conversation between the
victim Janel Spears and allegedly with Defendant, by Nicholas Larsen
is illegal.

Based upon the forgoing analysis, that illegal recording

was improperly admitted at trial and now requires overturning of
conviction.
The prosecution provided testimony from Nicholas Larson in which
Mr. Larson described how he taped a telephone conversation allegedly
between Defendant and Janel Shears.
prosecution

over

objection

by

The use of this testimony by the

defense

counsel

allowed

illegally

obtained evidence to mislead the jury.
Of course this court will view MCLA 750.539c of the Michigan
statue that governs eavesdropping upon a private conversation,
statute states:

The

“Any person who is present or who is not present

during a private Conversation and who willfully uses any device to
eavesdrop upon The conversation without the cones of all parties
thereto, or who knowingly aids, employs or procures another person to
do the same in violation of this section, is guilty of a felony.
Prosecutor violated the State's statute by not providing the
entire recording, which was contrary to Michigan court rules thereby
causing prejudice to the Defendant at the time of trial.
As this court consistently reminds this nation's litigator;
"each state has their own sovereignty", clearly this Michigan statute
governing eavesdropping is contradictory to Federal laws that permit

both participant and consensual monitoring,

Petitioner asks this

court to intervene in this expressed deviation of Michigan statute.
It is of constitutional magnitude to say the least, for to allow this;
violation of due process to continue, it will be a blemish on the
record of this Honorable Court, as well as keep an actually innocent
man incarcerated.
In addition, Defense counsel had the Defendant submit to a
polygraph examination which counsel informed Defendant that he had
passed.

Trial counsel didn*t inform the prosecutor of test results

nor did he make a demand for the polygraph examination pursuant to
statute on behalf of Defendant, needless to say that this is clearly
ineffective

assistance

of

counsel

according

to

Strickland

v

Washington, and standards of decency that this court prides itself of.
During District Court Preliminary Examination, the prosecutor
never proved the voice on the illegal recording to be the defendant,
and the phone number called by plaintiff was not listed to the
defendant by phone carrier.

These are two of Michigan statutorily

mandated “Seven Factors", needed to use the phone recording, and also
to lay the proper foundation which the prosecutor did neither.

During

trial, defense counsel motioned to the court to prove the authenticity
and "voice" of the illegal recording.

Trial court denied the motion,

thereby allowing the use of illegal recording, violating due process
and causing a miscarriage of justice.

Exclusion of exonerating evidence
At trial, just after the 1st selection of jurors, the prosecutor
put in a motion to the court to suppress the Medical Exam of the

plaintiff, trial counsel stipulated to this motion,

Trial counsel ?

sabotage Defendant*s defense by not objecting to the motion, when the
Medical Examination conclusively shown no abuse, as reported by U of M
Doctor*

The report detailed; **no sign of physical abuse i nor any

signs of sexual abuse**, it further stated: 7-2 x 10*4 Webs still
intact.

This evidence was intentionally suppressed to deny Defendant

a fair trial.

CONCLUSION
To be clear about this case, never does either prosecutor "prove"
Mr. Sutherby guilty of this accusation , I call it an accusation due
to the prosecution never introduces a crime.

The entire case is about

the illegal phone recording, the prosecutor at district court failed
to

lay

the

foundation,

to

use

the

recording,

The

states

two

witnesses, Janel Shears and Nick Larson were children at the time of
this accusation,

they didn’t know they were committing felonies,

pursuant to MCL 750.539 Sec. C,E,and F, they were influenced by James
Shears, he convinced them to lie on Defendant Kevin Sutherby.

Neither

of these two witnesses knew Kevin Sutherby, at the time of this
accusation.
By this being said, the prosecution didn't authenticate, this
illegal recording by the two witnesses, there is a "Seven Prong Test"
that the prosecutor must adhere to in order, to use the recording
pursuant to People v Taylor, 18 Mich App 381 (1969), and People v
Berkey, 437 Mich 40.

The Michigan Court of Appeals adopted from an

ALR article a "seven-part-test" to determine the admissibility of
sound recordings,
«t

The Court of Appeals said in People v Taylor:

that there must be:
1.
A showing that the recording device was capable of taking
testimony.
2. A showing that the operator of the device was competent.
3.
Establishment of the Authenticity and Correctness of the
recording.
4.
A showing that changes, additions, or deletions have not been
made.
5. A showing of the manner of the preservation of the recording.
6. "Identification" of the speakers involved, and
7. A showing that the testimony elicited was voluntarily made.
• * e

The recording of the phone conversation had been foreseen by the
defense, and a written motion to suppress admission was filed before
the case tried. During the course of the trial, and at the end of
trial, defense counsel made sure the objection of the use of recording
was on the record.

Judge noted.

Of the "seven part test", only number two would of been noted, the
detective states, "Hick Larsons phone was broken, no number one would
be no good.

Humber three would not of passed, due to it was not

authenticated and we know there were corrections during transferring
by detectives onto the C.D, Number four would of been no good, due to
Hick Larson felling the court/Jury that he re-recorded the taping onto
two other cellphones, this caused deleting, editing, missing parts of
the conversation.

Humber five proved wrong by Hick Larson stating,

"he didn't preserve the recording, and took it to detectives, he re­
recorded it on to Sherry Halls cellphone, and then she re-recorded it
onto Hr. James Shear's cellphone."

Lastly, and moat importantly,

Humber Six; was not substantiated, a voice expert was never used by
prosecution, nor was defense counsel's motion for expert and voice
analysis granted by trial judge.

In such a critical case, there is

not valid reason why the motion for voice analysis not to granted,
this clearly prejudiced defendant.
In 2010, Hr. Kevin Sutherby retained counsel) James A. Waske,
Attorney

Waske,

told

Mr.

Sutherby

that

he

would

put

in

his

supplemental motion to the Michigan Supreme Court,

attorney Haske

didn't submit the supplemental motion as agreed upon.

Hr. Waske, was

informed that prosecution's key witness Hick Larson, had contacted Hr.
Sutherby, and offered to help him attain his freedom.

This is one of

hundreds or possibly thousands of cases of actually innocent people
convicted in the State of Michigan,

My assertions is substantiated by

the numerous exonerations in Michigan.

Any defect in pleading, or any

perceived defaults, are not due to Defendant's negligence.

Upon a

severe inquiry, you will see the obvious sabotage.
After attorney Waske was informed that Key Witness Nick Larson
offered to assist Defendant Sutherby attain his exoneration, attorney
Waske showed signs of hesitancy, when it came to preparing the proper
motions to expedite Defendant's release,

After several weeks of

stalling to submit motion, to Mich. Supreme Court, attorney Waske quit
representing Defendant Sutherby.

Defendant being a novice to the

court system failed to file timely, based upon the ineffectiveness and
intentional sabotage by Attorney Waske.
Defendant subsequently, sought the representation of Attorney Ben
Gonek, who like previous attorney failed Defendant in every was deemed
possible.

Attorney Gonek, from the beginning assured Defendant and

Defendant's family, that freedom was on the horizon for defendant.
Yet, all of a sudden Attorney Gonek's demeanor changed via telephone
calls, since Mr.Gonek never visited Defendant, nor did he send letters
in response to Defendant's numerous letters sent.

These were red

flags, but Defendant couldn't see that something sinister was in play.
After composing, a self imploding motion of relief from judgement,
expectantly denial arrived,

Attorney Gonek's, attempts of appeals

were denied, and after receiving five crucial orders from Federal
District Judge Steven Murphy III, Attorney failed to respond to Judge
Murphy, causing the judge to deny any relief to Mr. Sutherby.

This

behavior in the least, must inspire a intense inquiry of all the

attested facts relayed in this motion, and in all previous litigation.
A bonafide miscarriage of justice is taking place,

As a Man, 1 don't

know how louder to scream for help in this situation.
After Judge Murphy denied motion, Defendant to the reigns, and
proceeded in pro per, seeking a reconsideration, of which a denial was
issued 8 months later.
Mr. Sutherby applied for COA in the Sixth Gircuit Court of
Appeals, which was denied by Judge Guy, for failing to prove why he
was defaulted on his tolling time.

Attorney Gonek, assured Defendant

and Family that he informed the court about all perceived defaults,
and assured us that we would receive justice in the Federal Courts.
Attorney Gonek, didn't inform the court of why Mr. Sutherby was time
barred, or why they should waive the tolling time.
Mow Mr. Sutherby is telling this Honorable Supreme Court why he
was time barred and that he is actually innocent, and any scrutiny you
give to my pleas, you will see that I am factually, and actually
innocent of the crime convicted of.
These errors of Trial, and appealate counsels, caused illegal
evidence to get binded over for trial, a mistrial to ensue, then
another trial to take place of which illegal evidence was used to
convict Mr. Sutherby.

I plead with this court to not discard this

plea, for lack of proper articulation
filing.

or lack of proper adherence to

I call upon you, with the earnest cry for justice, for I've

only received treachery thus far.

Please hear my plea, do a cursory

or an in depth look at transcripts, and filings to see for your self
the justifiable reasons to grant: Motion to vacate conviction and
sentence.
.

JOHN J. LUNDY
NOTARY PUBLIC, STATE OF Ml.
COUNTY OF WAYNE
MY COMMISSION EXPIRES Jun 25,2023
ACTING IN COUNTY OF

#738047

